     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242

December 20, 2011


Report Number: A-06-10-00051

Mr. Eugene Gessow
Director
Division of Medical Services
Arkansas Department of Human Services
700 Main Street
Little Rock, AR 72201

Dear Mr. Gessow:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Arkansas’ Reporting Fund Recoveries for Federal
and State Medicaid Programs on the CMS-64 Report for State Fiscal Year 2009. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Matthew Moore, Audit Manager, at (817) 685-2450 or through email
at Matthew.Moore@oig.hhs.gov. Please refer to report number A-06-10-00051 in all
correspondence.

                                             Sincerely,



                                             Patricia Wheeler
                                             Regional Inspector General
                                              for Audit Services

Enclosure
Page 2 – Mr. Eugene Gessow

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations (CMCHO)
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL


   REVIEW OF ARKANSAS’
REPORTING FUND RECOVERIES
  FOR FEDERAL AND STATE
MEDICAID PROGRAMS ON THE
 CMS-64 REPORT FOR STATE
     FISCAL YEAR 2009




                    Daniel R. Levinson
                     Inspector General

                     December 2011
                     A-06-10-00051
                         Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders
advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In Arkansas, the Department of Human Services, Division of Medical Services (State agency),
administers the Medicaid program. The State agency uses a statewide surveillance and
utilization control program to safeguard against unnecessary or inappropriate use of Medicaid
services and excess payments. The State agency contracted with QSource and the Arkansas
Foundation for Medical Care (AFMC) to conduct State Medicaid audits of Medicaid providers.
In addition, the Medicaid Program Integrity Unit (MPIU) and the Medicaid Fraud Control Unit
(MFCU) conducted audits and investigations, respectively, of Medicaid providers. When
QSource, AFMC, or MPIU identified overpayments, the State agency sent letters to the providers
that (1) identified the overpayment amounts and (2) directed the providers to send payments to
the State agency or notified providers of future payment offsets. Providers were notified of
fraud- and abuse-related overpayment amounts determined through settlements resulting from
MFCU investigations.

Section 1903(d)(2) of the Act requires the State to refund the Federal share of a Medicaid
overpayment. Implementing regulations (42 CFR § 433.312) require the State agency to refund
the Federal share of an overpayment to a provider at the end of the 60-day period following the
date of discovery, whether or not the State agency has recovered the overpayment. The date of
discovery for situations other than fraud and abuse is the date the provider is first notified in
writing of an overpayment and the specified dollar amount subject to recovery (42 CFR
§ 433.316(c)). For provider overpayments resulting from fraud or abuse, discovery occurs on the
date of the State’s final written notice of the overpayment determination (42 CFR § 433.316(d)).
Federal regulations (42 CFR § 433.304) define an overpayment as “... the amount paid by a
Medicaid agency to a provider in excess of the amount that is allowable for the services
furnished under section 1902 of the Act and which is required to be refunded under section 1903
of the Act.” Because the Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program (CMS-64 report), is due on a quarterly basis, the CMS State
Medicaid Manual requires the Federal share of the overpayments be reported no later than the
quarter in which the 60-day period ends.

OBJECTIVE

Our objective was to determine whether Medicaid overpayments were reported on the CMS-64
report in accordance with Federal regulations.


                                                i
SUMMARY OF FINDINGS

The State agency did not report all Medicaid overpayments in accordance with Federal
requirements. Also, the State agency was unable to support that all Medicaid overpayments had
been reported. For State fiscal year 2009, the State agency did not report or have supporting
documentation for Medicaid overpayments totaling $128,912 ($94,790 Federal share). Of the
125 overpayments we reviewed, 7 were partially reported or not reported on the CMS-64 report
and 13 were not supported by documentation that reconciled with the CMS-64 report. The
remaining 105 were correctly reported or were not required to be reported.

Also, the State agency did not report overpayments that were refunded to it on the CMS-64
report for the quarter ended March 31, 2009. Because of this error, the Federal Government did
not receive a credit of $3,791,246 ($2,760,406 Federal share) on the CMS-64 report. As a result
of our audit, the State agency refunded the overpayments on the CMS-64 report for the quarter
ended March 31, 2010.

The State agency did not properly report these overpayments because it had not implemented
internal controls to ensure that overpayments were reported on the CMS-64 report.

RECOMMENDATIONS

We recommend that the State agency:

       include unreported and unsupported Medicaid overpayments of $128,912 on the CMS-64
       report and refund $94,790 to the Federal Government,

       develop and implement internal controls to ensure that the Federal share of identified
       Medicaid overpayments is reported on the CMS-64 report in the required time period,
       and,

       develop and implement internal controls to ensure that items included in the CMS-64
       report reconcile with supporting documentation to prevent unreported overpayments
       similar to the $3,791,246 ($2,760,406 Federal share) error that occurred on the CMS-64
       report for the quarter ended March 31, 2009.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency did not fully agree with our first
recommendation. The State agency agreed that it had not correctly reported overpayments
totaling only $110,737 ($81,519 Federal share) of the $225,494 ($171,225 Federal share) that we
questioned. The State agency provided additional documentation with its response to support
that $96,582 of the $225,494 was all State funds and did not need to be reimbursed to the Federal
Government. For our other two recommendations, the State agency said that it had implemented
new procedures and additional internal controls to prevent these types of errors. The State
agency’s comments are included in their entirety as Appendix B.


                                               ii
OFFICE OF INSPECTOR GENERAL RESPONSE

We agree that the $96,582 was all State funds and have adjusted our findings and
recommendations accordingly. The State agency did not provide any details on the new
procedures and additional internal controls implemented; thus, we are not able to comment on
them.




                                              iii
                                                        TABLE OF CONTENTS

                                                                                                                                Page

INTRODUCTION................................................................................................................. 1

          BACKGROUND ........................................................................................................ 1
              Medicaid Program ........................................................................................... 1
              Federal Requirements for Medicaid Overpayments ....................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................... 2
               Objective ......................................................................................................... 2
               Scope ............................................................................................................... 2
               Methodology ................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ....................................................................... 4

          OVERPAYMENTS NOT REPORTED ..................................................................... 4

          OVERPAYMENTS NOT SUPPORTED ................................................................... 5

          OVERPAYMENTS NOT REPORTED TIMELY ..................................................... 5

          CMS-64 REPORT DID NOT RECONCILE TO SUPPORTING SUMMARY
          DOCUMENTATION ................................................................................................ 6

          INTERNAL CONTROLS NOT IMPLEMENTED.................................................... 6

          RECOMMENDATIONS ............................................................................................ 6

          STATE AGENCY COMMENTS ............................................................................... 6

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................. 7

APPENDIXES

          A: SAMPLING METHODOLOGY

          B: STATE AGENCY COMMENTS




                                                                    iv
                                        INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

The Federal Government pays its share (Federal share) of State Medicaid expenditures according
to a defined formula. To receive Federal reimbursement, State Medicaid agencies are required to
report expenditures on the Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program (CMS-64 report).

In Arkansas, the Department of Human Services, Division of Medical Services (State agency),
administers the Medicaid program. The State agency used a statewide surveillance and
utilization control program to safeguard against unnecessary or inappropriate use of Medicaid
services and overpayments by Medicaid to providers. The State agency contracted with QSource
to review therapeutic claims and the Arkansas Foundation for Medical Care (AFMC) to review
inpatient and emergency room claims. In addition, the Medicaid Program Integrity Unit (MPIU)
conducted audits of Medicaid providers. The State Medicaid Fraud Control Unit (MFCU)
obtained settlements from Medicaid providers in situations related to fraud or abuse investigations.
All together, QSource, AFMC, MPIU, and MFCU identified 15,706 overpayments. The
overpayments were included in audit reports, settlement agreements, and overpayment letters to the
State agency or Medicaid providers on behalf of the State agency. The reports, agreements, and
letters identified the overpayment amounts and directed the providers to send payment to either
the appropriate contractor or to the State agency or notified providers of future payment offsets.
Hewlett Packard (HP) acted as the State agency’s Medicaid fiscal agent and processed Medicaid
claims.

Federal Requirements for Medicaid Overpayments

The Federal Government does not participate financially in Medicaid payments for excessive or
erroneous expenditures. Section 1903(d)(2)(A) of the Act requires the Secretary to recover the
amount of the Medicaid overpayment. Federal regulations (42 CFR § 433.304) define an
overpayment as “... the amount paid by a Medicaid agency to a provider in excess of the amount
that is allowable for services furnished under section 1902 of the Act and which is required to be
refunded under section 1903 of the Act.” A State has 60 days from the discovery of a Medicaid
overpayment to a provider to recover or attempt to recover the overpayment before the Federal



                                                 1
share of the overpayment must be refunded to CMS.1 Section 1903(d)(2)(C) of the Act, as
amended by the Consolidated Omnibus Budget Reconciliation Act of 1985, and Federal
regulations at 42 CFR part 433, subpart F, require a State to refund the Federal share of
overpayments at the end of the 60-day period following discovery, whether or not the State has
recovered the overpayment from the provider.2 Pursuant to 42 CFR § 433.316(c), an
overpayment that is not a result of fraud or abuse is discovered on the earliest date:

        (1) ... on which any Medicaid agency official or other State official first
        notifies a provider in writing of an overpayment and specifies a dollar amount
        that is subject to recovery; (2) ... on which a provider initially acknowledges a
        specific overpaid amount in writing to the Medicaid agency; or (3) ... on which
        any State official or fiscal agent of the State initiates a formal action to recoup
        a specific overpaid amount from a provider without having first notified the
        provider in writing.

Pursuant to 42 CFR § 433.316(d), an overpayment resulting from fraud or abuse is discovered on
the date of the final written notice of the State’s overpayment determination that a Medicaid
agency official or other State official sends to the provider. For overpayments identified through
Federal reviews, 42 CFR § 433.316(e) provides that an overpayment is discovered when the
Federal official first notifies the State in writing of the overpayment and the dollar amount
subject to recovery.

In addition, Federal regulations (42 CFR § 433.320) require that the State refund the Federal
share of an overpayment on its CMS-64 report. Provider overpayments must be credited on the
CMS-64 report submitted for the quarter in which the 60-day period following discovery ends.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicaid overpayments were reported on the CMS-64
report in accordance with Federal regulations.

Scope

Our review covered Medicaid provider overpayments that were identified in audit reports,
settlement agreements, and overpayment letters issued to providers during State fiscal year (FY)
2009 (July 1, 2008, through June 30, 2009). Of the identified 15,706 Medicaid overpayments

1
  Effective March 23, 2010, section 6506 of the Patient Protection and Affordable Care Act, P.L. No. 111-148,
provides an extension period for the collection of overpayments. Except in the case of overpayments due to fraud,
States have up to 1 year from the date of discovery of a Medicaid overpayment to recover, or to attempt to recover,
such overpayment before making an adjustment to refund the Federal share of the overpayment. For overpayments
identified before the effective date, the previous rules on discovery of overpayment will be in effect.
2
  Sections 1903(d)(2)(C) and (D) of the Act and Federal regulations (42 CFR § 433.312) do not require a State to
refund the Federal share of uncollectable amounts paid to bankrupt or out-of-business providers.

                                                         2
that were $50 or more and totaled $9,554,849, we reviewed 125. The identified audit reports,
settlement agreements, and overpayment letters represent Medicaid overpayments that were
subject to the 60-day rule.
We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the identification, collection, and
reporting policies and procedures for Medicaid overpayments.

We performed fieldwork at the State agency in Little Rock, Arkansas, and at the AFMC offices
in Fort Smith, Arkansas, from January 2010 through March 2011.

Methodology

To accomplish our objective, we:

       reviewed Federal laws, regulations, and other requirements governing Medicaid
       overpayments;

       interviewed State agency, HP, QSource, AFMC, MPIU, and MFCU officials regarding
       policies and procedures relating to Medicaid overpayments subject to the 60-day rule and
       reporting overpayments on the CMS-64 report;

       identified 15,706 Medicaid overpayments that were $50 or more and totaled $9,554,849
       for claims subject to the 60-day rule;

       selected a stratified random sample of 125 overpayments:

           o 30, which ranged from $50 to $522, from the 4,645 identified by QSource,

           o 30, which ranged from $50 to $12,214, from the 10,966 identified by AFMC,

           o 30, which were less than $20,000, from the 60 overpayments identified by MPIU,
             and

           o 23 identified by MPIU that were more than $20,000 and all 12 identified by
             MFCU, which ranged from $210 to $1,322,618;

       established the dates of discovery using the dates QSource, AFMC, MPIU, and MFCU
       notified Medicaid providers in writing, on behalf of the State agency, of the
       overpayments and the dollar amount subject to recovery;

       determined the quarter in which the 60-day period following discovery of the
       overpayment ended;

       reviewed supporting documentation provided by the State to determine whether
       Medicaid overpayments were reported;

                                               3
       calculated the value of the sampled overpayments that the State agency did not report or
       for which it did not provide supporting documentation;

       reviewed CMS-64 reports to determine whether the Medicaid overpayments were
       reported for the quarter in which the 60-day period following discovery ended; and

       estimated, based on sampling, the number of overpayments that were reported by the end
       of the 60-day period following discovery.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not report all Medicaid overpayments in accordance with Federal
requirements. Also, the State agency was unable to support that all Medicaid overpayments had
been reported. For State fiscal year 2009, the State agency did not report or have supporting
documentation for Medicaid overpayments totaling $128,912 ($94,790 Federal share). Of the
125 overpayments we reviewed, 7 were partially reported or not reported on the CMS-64 report
and 13 were not supported by documentation that reconciled with the CMS-64 report. The
remaining 105 were correctly reported or were not required to be reported.

Also, the State agency did not report overpayments that were refunded to it on the CMS-64
report for the quarter ended March 31, 2009. Because of this error, the Federal Government did
not receive a credit of $3,791,246 ($2,760,406 Federal share) on the CMS-64 report. As a result
of our audit, the State agency refunded the overpayments on the CMS-64 report for the quarter
ended March 31, 2010.

The State agency did not properly report these overpayments because it had not implemented
internal controls to ensure that overpayments were reported on the CMS-64 report.

OVERPAYMENTS NOT REPORTED

Pursuant to 42 CFR § 433.312(a)(2), the State agency “… must refund the Federal share of
overpayments at the end of the 60-day period following discovery … whether or not the State
has recovered the overpayment from the provider.” The regulation provides an exception only
when the State is unable to recover the overpayment amount because the provider is bankrupt or
out of business (42 CFR § 433.318).

For State FY 2009, the State agency did not report Medicaid overpayments in accordance with
Federal requirements. Of the 125 Medicaid overpayments we reviewed, 7 totaling $85,024
($62,686 Federal share) were partially reported or not reported on the CMS-64 report.

                                               4
Specifically:

       Of the 30 randomly selected overpayments identified by MPIU of $107 to $18,740, 2
       overpayments totaling $6,438 ($4,696 Federal share) were partially reported or not
       reported.

       Of the 23 overpayments identified by MPIU that were more than $20,000 and all 12
       overpayments identified by MFCU, 5 overpayments totaling $78,586 ($57,990 Federal
       share) were partially reported or not reported.

OVERPAYMENTS NOT SUPPORTED

The State agency did not provide adequate documentation supporting that Medicaid
overpayments were included in the CMS-64 report. Of the 125 Medicaid overpayments
reviewed, we did not receive adequate supporting documentation to verify that 13 overpayments
totaling $43,888 ($32,104 Federal share) were reported on the CMS-64 report. Specifically:

       Of the 30 randomly selected overpayments identified by QSource of $50 to $522, 3
       overpayments totaling $231 ($175 Federal share) were not supported on the CMS-64
       report.

       Of the 30 randomly selected overpayments identified by AFMC of $50 to $12,214, 4
       overpayments totaling $2,703 ($1,972 Federal share) were not supported on the CMS-64
       report.

       Of the 30 randomly selected overpayments identified by MPIU of $107 to $18,740, 3
       overpayments totaling $5,031 ($3,670 Federal share) were not supported on the CMS-64
       report.

       Of the 23 overpayments identified by MPIU that were greater than $20,000 and the 12
       overpayments identified by MFCU, 3 overpayments totaling $35,923 ($26,287 Federal
       share) were not supported on the CMS-64 report.

OVERPAYMENTS NOT REPORTED TIMELY

Pursuant to 42 CFR § 433.312(a)(2), the State agency “… must refund the Federal share of
overpayments at the end of the 60-day period following discovery … whether or not the State
has recovered the overpayment from the provider.” For situations other than fraud or abuse,
Federal regulations (42 CFR § 433.316(c)) define the date of discovery as the date that a
provider was first notified in writing of an overpayment and the specified dollar amount subject
to recovery. For overpayments resulting from fraud or abuse, the date of discovery is defined at
42 CFR § 433.316(d) as the date of the final written notice of the overpayment determination
that the State sends to the provider. For overpayments identified through Federal reviews, CMS
will consider the overpayment discovered on the date the Federal official first notifies the State
in writing of the overpayment amount. These regulations do not allow for extending the date.


                                                 5
During our review, the regulation was changed to extend the 60 days to 1 year; however, the
effective date of the change was after our audit period. During our audit period, the State agency
did not report all Medicaid overpayments in accordance with the 60-day requirement. Of the 125
sampled overpayments, the State agency reported 104 and partially reported 2 on the CMS-64
report. For the 104 overpayments that were reported, 47 overpayments totaling $1,261,711 were
not reported on the CMS-64 report at the end of the 60-day period.

CMS-64 REPORT DID NOT RECONCILE TO SUPPORTING SUMMARY
DOCUMENTATION

Federal regulations (42 CFR § 433.320) require that the State refund the Federal share of an
overpayment on its CMS-64 report. For the quarter ended March 31, 2009, the State agency did
not include on the CMS-64 report overpayments totaling $3,791,246 ($2,760,406 Federal
share) it received from providers. Because of this omission, the Federal Government did not
receive a credit of $2,760,406 (Federal share) for overpayments identified by the State. As a
result of our audit, the State agency refunded the overpayments on the CMS-64 report for the
quarter ended March 31, 2010.

INTERNAL CONTROLS NOT IMPLEMENTED

The State agency did not implement internal controls to ensure that it correctly reported on the
CMS-64 report the Medicaid overpayments identified from State Medicaid audits and
settlements.

RECOMMENDATIONS

We recommend that the State agency:

       include unreported and unsupported Medicaid overpayments of $128,912 on the CMS-64
       report and refund $94,790 to the Federal Government,

       develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments on the CMS-64 report in the required time period,
       and,

       develop and implement internal controls to ensure that items included in the CMS-64
       report reconcile with supporting documentation to prevent unreported overpayments
       similar to the $3,791,246 ($2,760,406 Federal share) error that occurred on the CMS-64
       report for the quarter ended March 31, 2009.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency did not fully agree with our first
recommendation. The State agency agreed that it had not correctly reported overpayments
totaling only $110,737 ($81,519 Federal share) of the $225,494 ($171,225 Federal share) that we
questioned. The State agency provided additional documentation with its response to support

                                                6
that $96,582 of the $225,494 was all State funds and did not need to be reimbursed to the Federal
Government. For our other two recommendations, the State agency said that it had implemented
new procedures and additional internal controls to prevent these types of errors. The State
agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

We agree that the $96,582 was all State funds and have adjusted our findings and
recommendations accordingly. The State agency did not provide any details on the new
procedures and additional internal controls implemented; thus, we are not able to comment on
them.




                                               7
APPENDIXES
                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consisted of Medicaid overpayments that had an initial finding date of July 1,
2008, to June 30, 2009.

SAMPLING FRAME

The Arkansas Department of Human Services’ Medicaid Program Integrity Unit, Arkansas
Foundation for Medical Care, QSource, and the Medicaid Fraud Control Unit provided lists of
Medicaid provider overpayments they identified for the period July 1, 2008, to June 30, 2009.
The sampling frame, which was limited to overpayments of $50 or more, was an Excel file
containing 15,706 Medicaid provider overpayments totaling $9,554,849.

SAMPLE UNIT

The sample unit was a Medicaid provider overpayment.

SAMPLE DESIGN

We used a stratified random sample, defined as follows:

Stratum 1: 4,645 Medicaid provider overpayments of $50 to $522.

Stratum 2: 10,966 Medicaid provider overpayments of $50 to $12,214.

Stratum 3: 60 Medicaid provider overpayments of $107 to $18,740.

Stratum 4: 35 Medicaid provider overpayments greater than $20,000.

SAMPLE SIZE

We selected a random sample of 30 overpayments from each of the first 3 stratums and reviewed
all 35 sample items in stratum 4.

SOURCE OF RANDOM NUMBERS

We generated random numbers using Office of Inspector General (OIG), Office of Audit
Services (OAS), statistical software.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the number of Medicaid overpayments
properly reported.
                                    Page 1 of 2



APPENDIX B: STATE AGENCY COMMENTS
Page 2 of 2
